                                SOCIAL SECURITY
MEMORANDUM

Date:   June 10, 2002                                                    Refer To:

To:     Michael W. Grochowski
        Regional Commissioner

From:   Inspector General

Subject:Financial-RelatedAudit of Jackson County Public Administrator - An Organizational
        Representative Payee for the Social Security Administration (A-07-02-22002)


        Attached is a copy of our final report. Our objectives were to determine whether the
        Jackson County Public Administrator (1) had effective safeguards over the receipt and
        disbursement of Social Security benefits and (2) ensured Social Security benefits were
        used and accounted for in accordance with the Social Security Administration’s policies
        and procedures.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.




                                                       James G. Huse, Jr.


        Attachment
        File
        Subject File
        SSA/OIG/OA/
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


    FINANCIAL-RELATED AUDIT OF
    THE JACKSON COUNTY PUBLIC
ADMINISTRATOR – AN ORGANIZATIONAL
  REPRESENTATIVE PAYEE FOR THE
  SOCIAL SECURITY ADMINISTRATION

   JUNE 2002      A-07-02-22002



   AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                       Executive Summary
OBJECTIVE

Our objectives were to determine whether the Jackson County Public Administrator
(JCPA) (1) had effective safeguards over the receipt and disbursement of Social
Security benefits and (2) ensured Social Security benefits were used and accounted for
in accordance with the Social Security Administration’s (SSA) policies and procedures.

BACKGROUND

Some beneficiaries cannot manage or direct the management of their finances because
of their age or mental and/or physical impairments. Congress granted SSA the
authority to appoint representative payees (Rep Payee) to receive and manage these
beneficiaries’1 payments. A Rep Payee may be an individual or an organization. SSA
selects Rep Payees for Old-Age, Survivors and Disability Insurance beneficiaries or
Supplemental Security Income recipients when representative payments would serve
the individuals' interests.

Rep Payees are responsible for using benefits to serve the best interests of the
beneficiary or recipient. Their duties include:

·   using benefits to meet the beneficiary’s current and foreseeable needs;

·   conserving and investing benefits not needed to meet the individual's current needs;

·   maintaining accounting records of how the benefits are received and used;

·   reporting events to SSA that may affect the individual's entitlement or benefit
    payment amount;

·   reporting any changes in circumstances that would affect their performance as Rep
    Payees; and

·   providing SSA an annual Representative Payee Report (RPR) accounting for how
    benefits were spent and invested.




1
  We use the term “beneficiary” generically in this report to refer to both Old-Age, Survivors and Disability
Insurance beneficiaries and Supplemental Security Income recipients.


Financial-Related Audit of JCPA - An Organizational Rep Payee for SSA (A-07-02-22002)                           i
JCPA is a county agency that reports to the Probate Division of the Circuit Court of
Jackson County in Kansas City, Missouri. JCPA has 31 employees and serves as an
                           2
Organizational Rep Payee for SSA. During our audit period, JCPA served as Rep
Payee for 704 SSA beneficiaries. In addition, JCPA serves as the court-appointed
guardian/conservator for individuals who have no one else to care for them.

RESULTS OF REVIEW
Except for the lack of adequate documentation supporting the personal needs
allowance of institutionalized beneficiaries, JCPA had effective safeguards over the
receipt and disbursement of Social Security benefits and ensured Social Security
benefits were used and accounted for in accordance with SSA’s policies and
procedures. JCPA did not have adequate documentation to support the personal
needs allowance of institutionalized beneficiaries. This lack of documentation was
mitigated by the fact that most of the benefit payments JCPA received were for the cost
of beneficiaries’ care.

Of the 50 beneficiaries included in our sample, 44 lived in institutions (for example,
nursing homes), and 6 lived in private residences. For the 44 institutionalized
beneficiaries, JCPA provided the institutions a $30 monthly personal needs allowance.
The institutions were allowed to determine how the monthly personal needs allowance
was spent and were required to provide JCPA quarterly reports detailing the
expenditures. However, JCPA did not require the institutions to retain and/or submit
documentation supporting the expenditures (that is, receipts, cash disbursement
ledgers, etc). The absence of supporting documentation prevented us from
independently verifying that the beneficiaries for which the monthly personal needs
allowance was intended actually received and/or benefited from the funds.

Based on the results of our statistical sample, we estimate that JCPA provided at least
$170,070 to institutions for monthly personal needs allowances from May 1, 2000
through April 30, 2001. The $170,070 represents 5.4 percent of at least $3,147,515 in
SSA benefits JCPA received for the 704 beneficiaries.

We could not determine whether JCPA properly reported to SSA how benefits were
used in all cases because SSA did not provide 11 of the 41 RPRs we requested. Also,
discrepancies regarding the numbers of beneficiaries for which JCPA served as Rep
Payee were identified within various Representative Payee System queries. These two
issues are discussed in the Other Matters section of this report.




2
  An Organizational Rep Payee can be a social service agency, a Government agency official, or a
financial institution.


Financial-Related Audit of JCPA - An Organizational Rep Payee for SSA (A-07-02-22002)              ii
RECOMMENDATION
We recommend that SSA ensure JCPA maintains the proper level of documentation to
account for and safeguard the monthly personal spending allowances of SSA
beneficiaries living in institutions.

AGENCY COMMENTS

In response to our draft report, SSA agreed with our recommendation. See Appendix B
for the full text of SSA’s comments to our draft report.

REP PAYEE COMMENTS

JCPA did not provide comments to our draft report.




Financial-Related Audit of JCPA - An Organizational Rep Payee for SSA (A-07-02-22002)   iii
                                                        Table of Contents
                                                                                                             Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................5

    Monthly Personal Needs Allowance ..................................................................5

RECOMMENDATION .............................................................................................7

OTHER MATTERS .................................................................................................8

    Rep Payee Reports ...........................................................................................8

    Rep Payee System ............................................................................................8

APPENDICES

APPENDIX A – Sampling Methodology and Results

APPENDIX B – Agency Comments

APPENDIX C – OIG Contact and Staff Acknowledgments




Financial-Related Audit of JCPA - An Organizational Rep Payee for SSA (A-07-02-22002)
                                                                               Acronyms
JCPA                Jackson County Public Administrator

OASDI               Old-Age, Survivors and Disability Insurance

Rep Payee           Representative Payee

RPS                 Representative Payee System

RPR                 Representative Payee Report

SSA                 Social Security Administration

SSI                 Supplemental Security Income




Financial-Related Audit of JCPA - An Organizational Rep Payee for SSA (A-07-02-22002)
                                                                          Introduction
OBJECTIVE
Our objectives were to determine whether the Jackson County Public Administrator
(JCPA) (1) had effective safeguards over the receipt and disbursement of Social
Security benefits and (2) ensured Social Security benefits were used and accounted for
in accordance with the Social Security Administration’s (SSA) policies and procedures.

BACKGROUND

Some beneficiaries cannot manage or direct the management of their finances because
of their age or mental and/or physical impairments. Congress granted SSA the
authority to appoint representative payees (Rep Payee) to receive and manage these
beneficiaries and recipients’ benefit payments.1 A Rep Payee may be an individual or
an organization. SSA selects Rep Payees for Old-Age, Survivors and Disability
Insurance (OASDI) beneficiaries or Supplemental Security Income (SSI) recipients
when representative payments would serve the individuals' interests.

REPRESENTATIVE PAYEE RESPONSIBILITIES

Rep Payees are responsible for using benefits to serve the best interests of the
beneficiary or recipient. Their duties include:

·     using benefits to meet the beneficiary’s current and foreseeable needs;

·     conserving and investing benefits not needed to meet the individual's current needs;

·     maintaining accounting records of how the benefits are received and used;

·     reporting events to SSA that may affect the individual's entitlement or benefit
      payment amount;

·     reporting any changes in circumstances that would affect their performance as Rep
      Payees; and

·     providing SSA an annual Representative Payee Report (RPR) accounting for how
                                        2
      benefits were spent and invested.




1
    42 U.S.C. §§ 405(j) and 1383(a)(2).
2
    Id.; 20 C.F.R., part 404, subpart U and part 416, subpart F.


Financial-Related Audit of JCPA - An Organizational Rep Payee for SSA (A-07-02-22002)   1
About 7 million individuals have Rep Payees—approximately 4.4 million are OASDI
beneficiaries, 2 million are SSI recipients, and 600,000 are entitled to both OASDI and
SSI. The following chart reflects the types of Rep Payees and the number of
individuals they serve.

                                                            Number                  Number of
               Type of Rep Payee                               of                   Individuals
                                                           Rep Payees                 Served
    Individual Payees: Parents, Spouses,
    Adult Children, Relatives, and Others                        4,949,000                 6,160,000
    Organizational Payees: State Institutions,
    Local Governments and Others                                     44,150                 759,000
    Organizational Payees: Fee-for-Service                              850                  81,000
          TOTAL                                                  4,994,000                 7,000,000


JCPA

JCPA is a county agency that reports to the Probate Division of the Circuit Court of
Jackson County in Kansas City, Missouri. JCPA has 31 employees and serves as an
Organizational Rep Payee3 for SSA. During our audit period, JCPA served as Rep
Payee for 704 SSA beneficiaries. JCPA also serves as the court-appointed
guardian/conservator for individuals who have no one else to care for them. As
guardian, JCPA is responsible for the individuals’ living conditions and medical
treatment. As conservator, JCPA is responsible for their financial matters. JCPA
receives a fee from the State of Missouri for the services it provides as
guardian/conservator. JCPA conducts periodic site visits to the institutions and private
residences that house the individuals in its care including SSA beneficiaries. During the
site visits, JCPA ensures that beneficiaries are residing in acceptable living conditions
and that their needs are being met.

As shown in the table below, SSA paid $255,437 to JCPA for the sample of
50 beneficiaries from May 1, 2000 through April 30, 2001.

                                                 Benefits Received
                           Number                                                       Total SSA
                           of Cases              SSI               OASDI                 Funds
    SSI Only                  14                  $54,742                 $0                  $54,742
    OASDI Only                26                        0            150,482                  150,482
    Concurrent                10                   12,932             37,281                   50,213
       Total                  50                  $67,674           $187,763                $255,437


3
  An Organizational Rep Payee can be a social service agency, a Government agency official, or a
financial institution.


Financial-Related Audit of JCPA – An Organizational Rep Payee for SSA (A-07-02-22002)                   2
SCOPE AND METHODOLOGY
Our audit covered the period May 1, 2000 through April 30, 2001. To accomplish our
objectives, we:

·   Reviewed the Social Security Act, SSA regulations, rules, policies and procedures
    pertaining to Rep Payees.

·   Contacted the Kansas City, Missouri, SSA Regional Office and the Kansas City,
    Missouri, (South) field office staff to obtain background information about the Rep
    Payee’s performance.

·   Obtained from SSA’s Representative Payee System (RPS) a list of beneficiaries
    who were in the Rep Payee’s care during our audit period (May 1, 2000 through
    April 30, 2001).

·   Obtained from the Rep Payee a list of beneficiaries4 who were in its care as of
    July 6, 2001.

·   Compared and reconciled the RPS and the Rep Payee’s listings to identify a
    population of 704 SSA beneficiaries who were in the Rep Payee’s care during our
    audit period.

·   Reviewed and tested the Rep Payee’s internal controls over the receipt and
    disbursement of OASDI benefits and SSI payments.

·   Performed the following tests for the 50 beneficiaries included in our sample.

    -   Compared and reconciled benefit amounts paid according to the Rep Payee’s
        records to benefit amounts paid according to SSA’s records.

    -   Reviewed the Rep Payee’s accounting records to determine whether benefits
        were properly spent or conserved on the individual’s behalf. We also
        determined whether SSA was due a refund for any overpaid benefits.

    -   Traced a sample of recorded expenses to source documents and examined the
        underlying documentation for reasonableness and authenticity.

·   Used statistical sampling to estimate (1) the amount JCPA provided to institutions
    for monthly personal needs allowances during our audit period and (2) the total SSA
    benefits received by JCPA for the 704 beneficiaries during our audit period (see
    Appendix A).

4
 The Rep Payee could not provide a list of beneficiaries in its care during our audit period because it
maintained manual accounting records based on guardianship/conservator responsibilities, not by Rep
Payee responsibilities.


Financial-Related Audit of JCPA – An Organizational Rep Payee for SSA (A-07-02-22002)                     3
·   Interviewed a sample of the Rep Payee’s beneficiaries, personal guardians, or
    caregivers to determine whether their basic needs were being met.

·   Reviewed a sample of RPRs to determine whether the Rep Payee properly reported
    to SSA how benefits were used.

·   Reviewed six Forms SSA-11 (Request to Be Selected As Payee) submitted to SSA
    by JCPA to ensure proper signature by the Rep Payee.

We performed our audit at JCPA in Kansas City, Missouri, and SSA’s Kansas City,
Missouri, (South) field office between July and November 2001. We conducted our
audit in accordance with generally accepted government auditing standards.




Financial-Related Audit of JCPA – An Organizational Rep Payee for SSA (A-07-02-22002)   4
                                                          Results of Review
Except for the lack of adequate documentation supporting the personal needs
allowance of institutionalized beneficiaries, JCPA had effective safeguards over the
receipt and disbursement of Social Security benefits and ensured Social Security
benefits were used and accounted for in accordance with SSA’s policies and
procedures. JCPA did not have adequate documentation supporting the monthly
personal needs allowance of institutionalized beneficiaries. This lack of documentation
was mitigated by the fact that most of the benefit payments JCPA received were for the
cost of beneficiaries’ care.

We could not determine whether JCPA properly reported to SSA how benefits were
used in all cases because SSA did not provide 11 of the 41 RPRs we requested. Also,
discrepancies regarding the numbers of beneficiaries for which JCPA served as Rep
Payee were identified within various RPS queries. These two issues are discussed in
the Other Matters section of this report.

MONTHLY PERSONAL NEEDS ALLOWANCE

A Rep Payee’s duties include ensuring that SSA beneficiary’s needs are met. SSA’s
policy states that the Rep Payee of all institutionalized beneficiaries should provide at
least $30 each month for the beneficiaries’ personal needs.5 Furthermore, the Rep
Payee should keep written records of all payments received from SSA and how they
                         6
are spent and/or saved.

Of the 50 beneficiaries included in our sample, 44 lived in institutions (for example,
nursing homes), and 6 lived in private residences. For the 44 institutionalized
beneficiaries, JCPA provided the institutions with a $30 monthly personal needs
allowance. The institutions were allowed to determine how the monthly personal needs
allowance was spent and were required to provide JCPA quarterly reports detailing the
expenditures. However, JCPA did not require the institutions to retain and/or submit
documentation supporting the expenditures (that is, receipts, cash disbursement
ledgers, etc).

We reviewed 20 beneficiaries’ quarterly reports provided by institutions to JCPA in
support of the monthly personal needs allowance expenditures. The expenditures on
these quarterly reports appeared reasonable. However, the absence of supporting
documentation prevented us from independently verifying that the beneficiaries for
which the monthly personal needs allowance was intended actually received and/or


5
 Representative Payment Program, Guide for Organizational Representative Payees, What is Proper Use
of Benefits, Institutionalized Beneficiaries, page 1 of 3.
6
 Representative Payment Program, Guide for Organizational Representative Payees, What Are Your
Duties As a Representative Payee, page 1 of 1.


Financial-Related Audit of JCPA – An Organizational Rep Payee for SSA (A-07-02-22002)            5
benefited from the allowance. The lack of documentation was mitigated by the fact that
most of the benefit payments JCPA received were for the cost of beneficiaries’ care.

Based on the results of our statistical sample, we estimate that JCPA provided at least
$170,070 to institutions for monthly personal needs allowances from May 1, 2000
through April 30, 2001. The $170,070 represents 5.4 percent of at least $3,147,515 in
SSA benefits received by JCPA for the 704 beneficiaries.

JCPA should have a system in place to account for beneficiaries’ $30 personal needs
allowance. At a minimum, JCPA should require the institutions to maintain a ledger
with the beneficiary’s signature for cash disbursements and receipts for all noncash
distributions.




Financial-Related Audit of JCPA – An Organizational Rep Payee for SSA (A-07-02-22002)     6
                                                           Recommendation
We recommend that SSA ensure JCPA maintains the proper level of documentation to
account for and safeguard the monthly personal spending allowances of SSA
beneficiaries living in institutions.

AGENCY COMMENTS

In response to our draft report, SSA agreed with our recommendation. See Appendix B
for the full text of SSA’s comments to our draft report.

REP PAYEE COMMENTS
JCPA did not provide comments to our draft report.




Financial-Related Audit of JCPA – An Organizational Rep Payee for SSA (A-07-02-22002)   7
                                                                     Other Matters
REP PAYEE REPORTS

To determine whether JCPA properly reported to SSA how benefits were used, we
requested from SSA the most recently completed RPRs for 41 of our sample of
50 beneficiaries. While JCPA staff stated they submitted RPRs to SSA for all of
JCPA’s beneficiaries, SSA was unable to provide 11 of the 41 RPRs we requested.
Because SSA did not provide all the RPRs requested, we could not independently
confirm that JCPA met its reporting responsibilities. For the 11 RPRs SSA could not
provide, we do not know whether the RPRs were actually submitted to SSA by JCPA or
whether JCPA provided them to SSA and SSA could not locate them.

REP PAYEE SYSTEM

To determine the number of beneficiaries for which JCPA served as Rep Payee, we
accessed the “RP screening query response” within RPS. The query identified JCPA
as the Rep Payee for 697 beneficiaries. However, the “organization/institution query
response” within RPS identified JCPA as the Rep Payee for 899 beneficiaries. Both
queries should have reported the same number of beneficiaries. We discussed this
discrepancy with SSA field office staff who indicated that it was a systems-related
problem beyond their control. We also contacted SSA’s Office of Systems in Baltimore,
Maryland, but staff was unable to explain why discrepancies existed in the two queries.




Financial-Related Audit of JCPA - An Organizational Rep Payee for SSA (A-07-02-22002)   8
                                                                          Appendices




Financial-Related Audit of JCPA - An Organizational Rep Payee for SSA (A-07-02-22002)
                                                                                   Appendix A
SAMPLING METHODOLOGY AND RESULTS

We obtained from the Representative Payee System (RPS) and the representative
payee (Rep Payee) separate listings of beneficiaries who were in the Rep Payee’s care
and had received Social Security Administration (SSA) funds or had left the Rep
Payee’s care during our audit period. We compared and reconciled the Rep Payee’s
list with the RPS list and identified a population of 704 SSA beneficiaries under the Rep
Payee’s care during our audit period. From this population, we obtained a random
sample of 50 cases.

The Rep Payee received $255,437 in SSA funds for the 50 sampled individuals from
May 1, 2000 through April 30, 2001 of which $13,740 was for the monthly personal
needs allowance. Based on the results of our statistical sample, we estimate that the
Rep Payee provided at least $170,070 to institutions for monthly personal needs
allowances during the time period of May 1, 2000 through April 30, 2001. The
$170,070 represents 5.4 percent of at least $3,147,515 in SSA benefits received by the
Rep Payee for the 704 beneficiaries.

                               Sample Results and Projections
          Population Size                                                              704
          Sample Size                                                                   50
          Sample Results – SSA Benefits                                           $255,437
          Sample Results – Monthly Allowance                                       $13,740

                                        Dollar Projections

          Projection – SSA Benefits                                             $3,596,555
          Projection Lower Limit                                                $3,147,515
          Projection Upper Limit                                                $4,045,594

          Projection – Monthly Allowance                                          $193,459
          Projection Lower Limit                                                  $170,070
          Projection Upper Limit                                                  $216,848

           Note: All projections were calculated at the 90-percent confidence level.




Financial-Related Audit of JCPA - An Organizational Rep Payee for SSA (A-07-02-22002)
                                                                           Appendix B
AGENCY COMMENTS

From:             ||KC ARC MOS
Sent:             Thursday, May 16, 2002 4:10 PM
To:               Schaeffer, Steve
Cc:               Bailey, Mark; Combs, Roietta; O'Neail, Shawn; Kelley, Carolyn;
                  Staples, Rick; Woods, Fran; ||KC ORC; Dorothy Mask (E-mail); Ken
                  Powell (E-mail)
Subject:          COMMENTS FOR THE OIG REPORT ON JACKSON COUNTY -
                  Response From Kansas City Regional Office

Importance:       High

Thank you for the opportunity to comment on the Draft Report of the Financial-Related
Audit of Jackson County Public Administrator. Based on our involvement in the
representative payee process, we believe the findings are valid and the one
recommendation made is reasonable.

The recommendation (that SSA ensure JCPA maintains the proper level of
documentation to account for and safeguard the monthly personal spending allowances
of SSA beneficiaries living in institutions) will be addressed by the local field office with
assistance from the Regional office, working with JCPA.

If there are any questions, please contact Fran Woods, Director, Center for Systems
and Programs, 816-936-5621.

                         /s/

                      Dorothy E. Mask for
                      Michael W. Grochowski




Financial-Related Audit of JCPA - An Organizational Rep Payee for SSA (A-07-02-22002)
                                                                                   Appendix C
OIG CONTACTS AND STAFF ACKNOWLEDGMENTS


OIG CONTACTS

    Bill Fernandez, Director, Western Audit Division (510) 970-1739

    Mark Bailey, Deputy Director, (816) 936-5591


ACKNOWLEDGMENTS

In addition to the persons named above:

    Ronald Bussell, Lead Auditor

    Kenneth Bennett, Lead Auditor

    Richard Reed, Auditor

    Kimberly Beauchamp, Writer-Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General's Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-07-02-22002.




Financial-Related Audit of JCPA - An Organizational Rep Payee for SSA (A-07-02-22002)
                           DISTRIBUTION SCHEDULE

                                                                         No. of
                                                                         Copies

Commissioner of Social Security                                            1
Management Analysis and Audit Program Support Staff, OFAM                 10
Inspector General                                                          1
Assistant Inspector General for Investigations                             1
Assistant Inspector General for Executive Operations                       3
Assistant Inspector General for Audit                                      1
Deputy Assistant Inspector General for Audit                               1
 Director, Data Analysis and Technology Audit Division                     1
 Director, Financial Audit Division                                        1
 Director, Western Audit Division                                          1
 Director, Southern Audit Division                                         1
 Director, Northern Audit Division                                         1
 Director, General Management Audit Division                               1
Issue Area Team Leaders                                                   25
Income Maintenance Branch, Office of Management and Budget                 1
Chairman, Committee on Ways and Means                                      1
Ranking Minority Member, Committee on Ways and Means                       1
Chief of Staff, Committee on Ways and Means                                1
Chairman, Subcommittee on Social Security                                  2
Ranking Minority Member, Subcommittee on Social Security                   1
Majority Staff Director, Subcommittee on Social Security                   2
Minority Staff Director, Subcommittee on Social Security                   2
Chairman, Subcommittee on Human Resources                                  1
Ranking Minority Member, Subcommittee on Human Resources                   1
Chairman, Committee on Budget, House of Representatives                    1
Ranking Minority Member, Committee on Budget, House of Representatives     1
Chairman, Committee on Government Reform and Oversight                     1
Ranking Minority Member, Committee on Government Reform and Oversight      1
Chairman, Committee on Governmental Affairs                                1
Ranking Minority Member, Committee on Governmental Affairs                 1
                                                                             Page 2

Chairman, Committee on Appropriations, House of Representatives                1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                      1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                      1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                      1
Chairman, Committee on Appropriations, U.S. Senate                             1
Ranking Minority Member, Committee on Appropriations, U.S. Senate              1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate                1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                   1
Chairman, Committee on Finance                                                 1
Ranking Minority Member, Committee on Finance                                  1
Chairman, Subcommittee on Social Security and Family Policy                    1
Ranking Minority Member, Subcommittee on Social Security and Family Policy     1
Chairman, Senate Special Committee on Aging                                    1
Ranking Minority Member, Senate Special Committee on Aging                     1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                               1
President, National Council of Social Security Management Associations,
  Incorporated                                                                 1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                 1
Social Security Advisory Board                                                 1
AFGE General Committee                                                         9
President, Federal Managers Association                                        1
Regional Public Affairs Officer                                                1


Total                                                                         97
                   Overview of the Office of the Inspector General
                                         Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.


                                 Office of Executive Operations

The Office of Executive Operations (OEO) provides four functions for the Office of the Inspector
General (OIG) – administrative support, strategic planning, quality assurance, and public affairs.
OEO supports the OIG components by providing information resources management; systems
security; and the coordination of budget, procurement, telecommunications, facilities and
equipment, and human resources. In addition, this Office coordinates and is responsible for the
OIG’s strategic planning function and the development and implementation of performance
measures required by the Government Performance and Results Act. The quality assurance
division performs internal reviews to ensure that OIG offices nationwide hold themselves to the
same rigorous standards that we expect from the Agency. This division also conducts employee
investigations within OIG. The public affairs team communicates OIG’s planned and current
activities and the results to the Commissioner and Congress, as well as other entities.


                                     Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.


                               Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: .1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the OIG. The Counsel’s office also administers the civil monetary penalty program.
